<html>
<title> - HEARING ON H.R. 834, A BILL TO EXTEND THE AUTHORIZATION FOR THE NATIONAL HISTORIC PRESERVATION FUND, AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



    HEARING ON H.R. 834, A BILL TO EXTEND THE AUTHORIZATION FOR THE 
      NATIONAL HISTORIC PRESERVATION FUND, AND FOR OTHER PURPOSES

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                     APRIL 15, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-72

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE
64-983                     WASHINGTON : 2000


                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH-HAGE, Idaho          CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA MC CHRISTENSEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  JAY INSLEE, Washington
MARK E. SOUDER, Indiana              GRACE F. NAPOLITANO, California
GREG WALDEN, Oregon                  TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
MIKE SIMPSON, Idaho                  RUSH D. HOLT, New Jersey
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          CARLOS A. ROMERO-BARCELO, Puerto 
JOHN J. DUNCAN, Jr., Tennessee           Rico
JOEL HEFLEY, Colorado                NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
WALTER B. JONES, Jr., North          DONNA CHRISTIAN-CHRISTENSEN, 
    Carolina                             Virgin Islands
CHRIS CANNON, Utah                   RON KIND, Wisconsin
RICK HILL, Montana                   JAY INSLEE, Washington
JIM GIBBONS, Nevada                  TOM UDALL, New Mexico
MARK E. SOUDER, Indiana              MARK UDALL, Colorado
DON SHERWOOD, Pennsylvania           JOSEPH CROWLEY, New York
                                     RUSH D. HOLT, New Jersey
                        Allen Freemyer, Counsel
                     Todd Hull, Professional Staff
                    Liz Birnbaum, Democratic Counsel
                   Gary Griffith, Professional Staff


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held April 15, 1999......................................     1

Statements of Members:
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     5
        Prepared statement of....................................     5
    Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado..........................................     8
        Prepared statement of....................................    10
    Romero-Barcelo, Hon. Carlos, a Delegate in Congress from the 
      Commonwealth of Puerto Rico................................    12
        Prepared statement of....................................    13

Statements of witnesses:
    Hertfelder, Eric, Executive Director, National Conference of 
      State Historic Preservation Officers.......................    24
        Prepared statement of....................................    25
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      district of Columbia.......................................     5
        Prepared statement of....................................     7
        Osterman, Tamar, Director of Policy Research, National 
          Trust for Historic Preservation........................    28
        Prepared statement of....................................    29
    Stanton, Robert, Director, National Park Service.............    14
        Prepared statement of....................................    16

Additional material supplied:
    Text of H.R. 834.............................................     2

 
    HEARING ON H.R. 834, A BILL TO EXTEND THE AUTHORIZATION FOR THE 
      NATIONAL HISTORIC PRESERVATION FUND, AND FOR OTHER PURPOSES

                              ----------                              


                      THURSDAY, APRIL 15, 1999    

              House of Representatives,    
                 Subcommittee on National Parks    
                                      and Public Lands,    
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m., in 
Room 1334, Longworth House Office Building, Hon. James V. 
Hansen [chairman of the Subcommittee] presiding.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr Hansen. Good morning, everyone. The Subcommittee on 
National Parks and Public Lands will come to order. Today we 
will hear testimony on only one bill, but it is a very 
important bill, H.R. 834, which would reauthorize the National 
Historic Preservation Fund.
    H.R. 834 was introduced by my colleague and fellow 
Subcommittee member, Congressman Joel Hefley of Colorado. This 
bill would reauthorize the currently expired National Historic 
Preservation Fund until September 39, 2005. H.R. 834 also 
amends the National Historic Preservation Act to include 
application of this Act to some areas under the jurisdiction of 
the Architect of the Capitol, and also modifies the way Federal 
agencies consider historic properties for carrying out their 
responsibilities.
    [The Bill follows:]

    [GRAPHIC] [TIFF OMITTED] T4983.001
    
    [GRAPHIC] [TIFF OMITTED] T4983.002
    
    [GRAPHIC] [TIFF OMITTED] T4983.003
    
    Mr. Hansen. I want to thank all of our witnesses for being 
here today to testify on this bill, and now I will turn the 
time over to the Ranking Member, Mr. Romero-Barcelo I see he's 
not here so, with that in mind, we will just go ahead with the 
first witness.
    [The prepared statement of Mr. Hansen follows:]

 STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS FROM 
                           THE STATE OF UTAH

    Good morning everyone. The Subcommittee on National Parks 
and Public Lands will come to order. Today we will hear 
testimony on only one bill, but it is a very important bill--
H.R. 834 which would reauthorize the National Historic 
Preservation Fund.
    H.R. 834 was introduced by colleague and fellow 
Subcommittee member Congressman Joel Hefley of Colorado. This 
bill would reauthorize the currently expired National Historic 
Preservation Fund until September 30, 2005. H.R. 834 also 
amends the National Historic Preservation Act to include 
application of this Act to some areas under the jurisdiction of 
the Architect of the Capitol, and also modifies the way Federal 
agencies consider historic properties for carrying out their 
responsibilities.
    I want to thank all of our witnesses for being here today 
to testify on these bills and now turn the time over to the 
Ranking Member Mr. Romero-Barcelo.

    Mr Hansen. The first Member up is the Honorable Eleanor 
Holmes Norton from Washington, DC. We welcome you here. We 
appreciate you being here with us, and we'll turn the time over 
to you.

STATEMENT OF HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS 
                 FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much, Mr. Chairman. I apologize 
that I am a few minutes late. I am particularly appreciative of 
all that the Subcommittee has done on the National Historic 
Preservation Act.
    Rather than read my testimony, I would ask to summarize and 
submit my full statement for the record.
    Mr Hansen. Without objection, so ordered.
    Ms. Norton. Mr. Chairman, I can't begin without thanking 
you for your numerous courtesies to me since you have been 
chairman. This Subcommittee essentially has jurisdiction over 
20 percent of the land in the District and, therefore, matters 
that are of considerable importance to my own constituents.
    I appreciate the way in which you have handled the bills 
that have come before the Subcommittee affecting the District 
of Columbia. Most recently, the Subcommittee secured passage of 
my bill that authorized private construction of a memorial for 
Benjamin Banneker, America's first black man of science. That 
effort is now underway with private funds.
    I want to also note my appreciation to Congressman Hefley, 
who has crafted the bill and reintroduced it. The National 
Historic Preservation Act is of immense importance, not only to 
the country but especially to this city. This Subcommittee 
deserves enormous credit for the way in which you have made 
this an effective statute.
    The section that I come to testify about is a small but 
important change in section 107. It essentially narrows--and I 
would say clarifies--the exemption of the Architect of the 
Capitol over property under its jurisdiction. Congress never 
envisioned that the Architect would be deep into the community, 
as he necessarily is. May I saw we welcome the Architect into 
the community. His efforts have been most salutary and have 
contributed much to the community. Of course, it is necessary, 
when the Congress needs facilities, for it to go into the 
Capitol Hill community. We can't think of a better neighbor in 
the community than the United States Congress, which takes such 
effort to build according to the historic nature of the 
community.
    There are properties that are distant from the U.S. Capitol 
complex, and I want to fully endorse the provision in H.R. 834 
that clarifies that the exemption of the Architect applies to 
the principal buildings and grounds of the U.S. Capitol and 
then is very specific about what those grounds are by reference 
to a map dated November 6, 1996, on file in the office of the 
Secretary of the Interior.
    Essentially, this provision complies with the public review 
and consultation process that Federal agencies have long 
regarded as, not only their obligation, but as something they 
have thought contributed to a project as they do it, whenever 
there is construction affecting a historic site of any kind in 
an area.
    I want to emphasize that I think the change in section 107, 
Mr. Chairman, is virtually mandated by what this Congress has 
done in Public Law 104-1, the Congressional Accountability Act. 
As you will recall, in a historic departure, the Congress, in 
Public Law 104-1, essentially said, for the first time in the 
history of the United States, the Congress will submit itself 
to the laws of the United States. Because no one had in mind 
the Architect at the time, but were thinking about various 
kinds of laws in which people filed complaints, this exemption 
was not attended to at that time. That is, I believe, what this 
exemption does.
    Now, it would be impossible to reconcile the Congressional 
Accountability Act with an exemption for the major agent of the 
Congress when the Congress engages in construction. The 
Architect is the Congress when it comes to construction.
    The neighborhood and the Capitol complex are essentially of 
a piece. There is enormous respect for the Capitol and all it 
does for the neighborhood. The DC Historic Preservation Review 
Board is a very sophisticated body in the District. It has 
great expertise and has helped to safeguard the historical 
character of the neighborhood. If it hadn't done its job, the 
Capitol itself would have been in danger because the Capitol 
depends upon the preservation and integrity of its historic 
environment.
    I regret there was what I would regard as a thoroughly 
unnecessary misunderstanding that arose when the Senate day-
care center was planned in 1996. The community welcomed the 
Senate day-care center with open arms because it took a 
blighted building, and also because it loved the idea of a day-
care center.
    I recall that, at the time the demolition of an historic 
property was being considered, Senator John Warner was also 
troubled that there wasn't some way that we could work this 
out, because nobody was asking that the building not be 
demolished. They were asking for some minor respect for the 
facade, and there are many ways to do that, without even 
preserving the entire facade.
    If Senator Warner and I had had more time, I think that the 
matter could have been easily resolved. His intervention was 
very skillful. I remember Congress was out of session, and 
there were other Members of Congress who were equally upset 
because, Mr. Chairman, it almost never occurs that anybody 
wants to simply tear down a historic property without paying 
some respect to some part of it. Normally you work these things 
out because we're old hands at these things by now.
    I particularly appreciate the sensitivity that this 
Subcommittee has shown to these concerns and in synchronizing 
local and congressional concerns. I appreciate particularly 
that you, Mr. Chairman, entered into a colloquy with me on the 
House floor. I believe that, with some clarification with the 
Senate and some time to have conversations with them, if this 
bill is passed as it was last session, that we will have an 
important addition to the National Historic Preservation Act.
    I very much appreciate this opportunity to testify, and I 
am open to any questions that you may have for me.
    [The prepared statement of Ms. Norton follows:]

 STATEMENT OF HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS FROM 
                        THE DISTRICT OF COLUMBIA

    Mr. Chairman, Ranking Member Romero-Barcelo, and Members of 
the Subcommittee, thank you for the opportunity to testify on 
H.R. 834, a bill to extend the authorization for the National 
Historic Preservation Act of 1966 (NHPA). As you know, the 
National Park Service and other units of the Department of the 
Interior control almost 20 percent of the land in the District 
of Columbia, and thus, this Subcommittee has jurisdiction over 
important matters bearing directly on the nation's capital and 
my constituents. I want to thank you, Mr. Chairman, for the 
thoroughly bipartisan way you have developed this bill and for 
the courtesies you have afforded me today and on bills in the 
past. Please accept my special thanks for the recent passage of 
a bill I introduced to authorize private construction on park 
land of a memorial in honor of Benjamin Banneker, America's 
first black man of science and one of the individuals who 
helped to survey the boundaries of the District of Columbia.
    I appreciate the hard work that the Subcommittee has 
devoted to H.R. 834. I want especially to thank Congressman 
Hefley of the Subcommittee for his efforts in crafting the bill 
and re-introducing it early in this Congress. This was 
noncontroversial legislation when it passed the full House last 
year, and I believe that with clarification, any reservations 
that the Senate may have had will be resolved.
    First, I want to note my strong support for the National 
Historic Preservation Act and my appreciation for your work 
that has made this statute so effective. As you know, NHPA 
authorizes the Secretary of the Interior to administer a 
National Register of Historic Places consisting of districts, 
sites, buildings, and other structures that embody significant 
aspects of American history, architecture, archeology, 
engineering, and culture. This inventory now includes over 
800,000 buildings and sites, including Union Station, the Old 
Post Office, the Warner Theater, and many others in the 
District of Columbia. NHPA also authorizes an Historic 
Preservation Fund granting money to states and individuals to 
undertake historic preservation projects. NHPA has been a major 
and indispensable instrument in the nation's efforts to 
preserve its cultural and historic heritage for the benefit of 
future generations. H.R. 834 helps maintain this framework, and 
I am pleased that this bill extends the authorization for NHPA 
through 2005.
    I am here mainly to testify in favor of a small but 
important change to section 107 of NHPA to narrow the exemption 
of the Architect of the Capitol over property under its 
jurisdiction. Under current law, NHPA is ``not applicable to . 
. . the United States Capitol and its related buildings and 
grounds.'' This language has been construed overbroadly to 
include all properties under the jurisdiction of the Architect 
of the Capitol, including sites that are distant from the U.S. 
Capitol complex but fully integrated into the surrounding 
community, usually preexisting to being acquired by the 
Architect. I strongly support the provision in H.R. 834 to 
clarify that any exemption that the Architect of the Capitol 
now has applies only to the principal buildings and grounds of 
the U.S. Capitol complex as depicted by a map dated November 6, 
1996 on file in the office of the Secretary of the Interior.
    This change is especially important because it requires the 
Architect of the Capitol to comply with the public review and 
consultation process that Federal agencies must follow in any 
undertaking affecting an historic district, site, building, or 
structure pursuant to section 106 of NHPA. Section 106 was 
established specifically so that no Federal agency would ignore 
unilaterally the preservation of significant cultural resources 
affecting local communities.
    I emphasize that this change is virtually mandated by and 
most certainly consistent with Pubklic Law 104-1, the 
Congressional Accountability Act, which requires that Congress 
be held to the same laws as other Americans and entities. The 
Congress has proudly noted that it has subjected itself to its 
own laws. It would be impossible to reconcile the standard of 
congressional accountability found in Public Law 104-1 with an 
exemption for a major agent of the Congress that no Federal 
agency and no American enjoys.
    Section 106 is a cornerstone of historic preservation 
efforts in the District because of the preponderant Federal 
presence here. By narrowing the section 107 exemption, the bill 
shows respect for the historic character of the immediate 
neighborhood surrounding the White House and the U.S. Capitol. 
For example, the neighborhood and the historic Capitol 
buildings are of a piece. If the historic character of 
structures in the neighborhood were altered, anomalies out of 
keeping with the Capitol itself could result, however 
unintentionally.
    The Capitol Hill community in particular not only provides 
a thriving cultural and commercial setting for the Capitol that 
serves Members, staff, and tourists alike, This community and 
the DC Historic Preservation Review Board, the national 
historic preservation partner in DC, as well as the Advisory 
Neighborhood Commissions, all help safeguard the historic 
character of the neighborhood that is indispensable to 
preserving the Capitol's own historic integrity.
    I regret that an unnecessary misunderstanding arose with 
the Office of the Architect when the Senate day-care center was 
planned in 1996. The problem did not involve the center at all, 
and no one in the community opposed or sought to delay its 
establishment. The community welcomed the day care center with 
open arms not only because of its purpose but because it took a 
blighted property that marred the neighborhood. With minor 
changes that allowed at least minimal respect for the facade 
and more time to discuss the matter, a needless confrontation 
with the community and with Members of Congress could have been 
avoided. I was particularly grateful for the intervention of 
Senator John Warner, who was most sympathetic with the historic 
preservation concerns. With his skillful efforts and more time, 
the matter might have been resolved to the satisfaction of all 
concerned.
    Most important to bear in mind, the local authorities have 
advisory authority only. Moreover, almost always, government 
officials say that advice and counsel improves a project. 
Allowing advisory expert and community comments that have no 
binding legal effect is little enough to ask. I appreciate the 
sensitivity of this Subcommittee in its work on section 107 to 
synchronize local and congressional concerns.

    Mr Hansen. Thank you very much. We appreciate your 
testimony.
    I would like to turn to the sponsor of the bill, if he has 
any questions for our colleague from the District of Columbia, 
or for any opening statement he may have as the sponsor of this 
important legislation.

  STATEMENT OF HON. JOEL HEFLEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Hefley. Thank you, Mr. Chairman. I would like to say a 
few words in opening, and then I would have a question or two 
of Mrs. Norton.
    First of all, I apologize for not being here for all of 
your testimony, Mrs. Norton, because you have been extremely on 
top of this situation and have been very supportive, I think, 
of the concept.
    Mr. Chairman, H.R. 834, as you will remember, because we 
went through it last year in great detail, passed it, got it 
over to the Senate, in the last days it got wrapped up, as so 
much legislation does over there, with things that didn't have 
any relationship to this really. But this was held hostage and 
one thing led to another. So I think it's extremely important 
that, early in this session, we're bringing this up again so 
that we can get it passed and, with Mrs. Norton's help and 
others, we'll get it all the way through the process this time.
    As all of us know, and as probably already been pointed 
out, the authorization for this program expired in September of 
1997, so there is some urgency in getting this bill enacted.
    The bill before you reflects this program's stature as a 
mature undertaking. By and large, existing law has worked. 
Historic preservation is now accepted as a legitimate national 
concern. I think Mrs. Norton pointed that out in her testimony, 
that most people don't want to run roughshod over our history 
and culture in this Nation. I think it is a legitimate concern.
    The program has evolved into a model of state, Federal and 
public/private cooperation. State and local groups have 
leveraged relatively scant Federal funds into an investment far 
in excess of what Washington alone might have achieved. So the 
bill before you authorizes the existing program through 2005. 
It allows the Interior Department to administer grants to the 
National Trust for Historic Preservation, which is a proven 
means of providing funding in emergencies, such as the 
Mississippi River floods of some years back.
    The bill also deals with treatment of the White House, the 
Capitol, the Supreme Court buildings, and codifies an Executive 
order directing the use of buildings in historic districts by 
Federal agencies.
    The reasons for the first of these are twofold: First, this 
Congress has maintained that it follow the same laws it enacts 
for the general public, and second, the government, 
particularly the Congress, has not always done that in the 
preservation arena, particularly here in Washington. I believe 
Mrs. Norton has pointed that out.
    Finally on this subject, I will concede that, for reasons 
of daily operations and security needs, there are some 
buildings that properly cannot be treated in the same way as 
other historic sites, but will nonetheless point out that some 
of the Nation's most successful preservation efforts have been 
conducted by the armed services, as a matter of fact, all of 
which can legitimately claim operational and security needs for 
an exemption, and some don't.
    I have mentioned before, I think, Warren Air Force Base in 
Cheyenne, WY, which was an old calvary post. Black Jack 
Pershing was commander there at one time. You go on that base 
today and there's the parade field still there. There are the 
enlisted men's barracks still there, on one side of the parade 
field, and the officers housing on the other side. And behind 
the enlisted men's barracks, the stables are still there. The 
only thing is, the stables today are computer centers and so 
forth. But from the outside, they are every bit stables. So 
there are ways, even in national security facilities, to do 
that.
    This bill also clarifies and codifies Executive Order 
13006, which directs Federal agencies to give first priority to 
locating the Nation's central cities. This Executive order 
builds on a series dated back to the Nixon Administration. But 
Executive Order 13006 is also meant to conform with the Rural 
Development Act of 1972.
    So I think we have worked out most of the concerns in this 
bill. I think most people are in favor of it, and we'll hear 
additional testimony this morning. If there are problems with 
it, we're happy to try to make which changes are necessary to 
make it work better. So what we are doing is reenacting the old 
law with some modern updates to make it work better.
    [The prepared statement of Mr. Hefley follows:]

 STATEMENT OF HON. JOEL HEFLEY, A REPRESENTATIVE IN CONGRESS FROM THE 
                           STATE OF COLORADO

    Mr. Chairman, I'd like to thank you for holding hearings on 
this bill, H.R. 834, which will extend the authorization of the 
National Historic Preservation Act.
    We already acted upon a version of this bill in the last 
Congress and, as with the film fees bill, which we passed 
earlier this week, might have enacted that legislation had it 
not been for the usual end-of-session fun and games between 
this and the other body. But in this case, there is some 
urgency--due to our lack of action, the authorization for the 
National Historic reservation Fund expired on September 30, 
1997. Enactment of this legislation is urgently needed.
    The bill before you reflects this program's stature as a 
mature undertaking. There is no need for wholesale changes in 
the law because, by and large, the existing law has worked. Not 
only has historic preservation become established as a 
legitimate national concern, the program has evolved into a 
model example of partnership between Federal and state 
governments and between the public and private sectors. Though 
the Historic Preservation Fund had, in the past, been 
authorized to a level of $150 million per year, it seldom 
received more than $40 million. Nevertheless, state and local 
organizations, by using Federal funds as seed money, have been 
able to leverage an amount of investment far in excess of what 
Washington alone might have achieved.
    So the bill before you reauthorizes the existing program 
through 2005, reflecting the year's delay in our actions. It 
includes a provision for the Secretary of Interior to 
administer grants to the National Trust for Historic 
Preservation, a funding conduit the appropriators have found 
useful in delivering funding in emergency situations, such as 
the Mississippi River flooding of some years back.
    The bill also contains two provisions which we will examine 
today. First, the bill exempts from the National Historic 
Preservation Act the White House and properties under the 
jurisdiction of the Architect of the Capitol, which are 
identified on maps filed with the Secretary of the Interior.
    The reasons for this provisions are twofold. Number one, 
four years ago this Congress adopted legislation based on the 
belief that this body should adhere to the same laws it imposed 
on the general public. It is absurd to maintain that historic 
preservation is a valid national goal, then turn around and 
state that three of the nation's most historic buildings can 
ignore that goal.
    Second, this lack of congressional direction has resulted 
in problems here in the District of Columbia. Some years ago, a 
daycare center was constructed in the middle of a local 
historic district with little, if any, consultation with local 
historic preservation officials. I am told that circumstances 
have changed and there should be no repetition of that episode 
but we cannot be sure such circumstances will not reoccur.
    For reasons of security and daily operations, the White 
House, the Capitol and the Supreme Court probably cannot be 
treated the same as other historic sites (although I'd point 
out that some of the country's most successful preservation 
programs have been conducted by the armed services, any one of 
which can claim more overriding security concerns.). But I do 
not believe it is too much to ask the managers of these 
properties to identify their domains and at least, make a stab 
at cooperating with local communities and local preservation 
laws.
    Another provision in this bill clarifies and codifies 
Executive Order 13006, which gives priority to locating Federal 
facilities in the nation's central cities. Executive Order 
13006 was based upon a series of such orders dating back to the 
Nixon Administration which directed Federal agencies to use 
historic structures whenever possible. This is a goal worthy of 
the national government and frankly, in the case of visitors' 
centers and the like, will probably save us money in the long 
run.
    But in our study of these executive orders, we uncovered 
what we believe is a contradiction. Executive Order 13006 is 
meant to be consonant with previous executive orders and with 
provisions of the Rural Development Act of 1972, the latter of 
which gave first priority to locating Federal facilities in 
rural development areas. Our language flatly directs that 
Federal agencies should first look in nearby historic districts 
to fill their building needs, no matter whether those districts 
are urban and rural in character.
    Note that the Administration has logged in with its 
proposal for a straight reauthorization of the Historic 
Preservation Act, minus any treatment of the use of historic 
properties and wonder what questions the Administration has 
with codifying a policy it drafted in the first place.
    With that, I'll close, Mr. Chairman. I look forward to 
hearing today's witnesses and hope we'll be able to move this 
bill swiftly to enactment.

    Mr. Hefley. Mrs. Norton, if I might, you mentioned the 
Senate day-care center. Are you aware of other instances of 
conflict between the Architect of the Capitol and the local 
community? The Senate day-care center was during another 
Architect's tenure. I wonder if things have improved under this 
present Architect since he came on board?
    Ms. Norton. As a matter of fact, the former Architect, Mr. 
White, had, in fact, left. I think part of the reason this 
problem arose was that there was no Architect at the time. We 
had an interim situation.
    Mr. Hefley. I see.
    Ms. Norton. I want to mention, Mr. Hefley, in response to 
your question, that I was absolutely astonished that this 
became a problem, because under Mr. White the Library of 
Congress built a day-care center in an abandoned school. Did we 
love them for doing that. They took a school that had been 
abandoned by the Catholic Church and made it into a day-care 
center.
    Well, the community raised some concerns. They were 
concerned that the children might be dropped off on East 
Capitol Street and it would slow up traffic. They were 
concerned whether or not huge parking problems would arise. 
They were concerned that the building itself reflect the 
neighborhood.
    Well, Mr. White did not jump out a window. Mr. White sent 
his agents out to the community, talked with them. I had hardly 
anything to do with it. In discussions with the community, Mr. 
White made some changes. He hadn't thought about the fact, for 
example, that there probably should be some way to drop off for 
the safety of the children, so that there were not there in 
immediate traffic. Working with the city, he arranged for 
parking not to be a problem. So, instead of a big brouhaha with 
the community, the Architect simply sat down and worked it out.
    The interim people were extremely rigid. The District 
people weren't saying leave the building up. Of course, not. 
Nor were they saying leave the facade in any particular way. 
With the most minor respect for the facade, somehow, on the 
grounds, I think the matter could have been solved.
    I cannot say that, under this Architect, matters have 
improved. In fact, I almost wish for Mr. White back, because 
Mr. White would have worked these things out. I wouldn't 
probably have thought about the need for a bill. I think this 
Architect may have lobbied the Senate and may have been partly 
responsible for the misunderstanding in the Senate.
    I have to really say that I think the rigidity shown was 
there should be no changes, we shouldn't have to submit to 
anybody except the Congress, no concern for the Congressional 
Accountability Act, which says exactly the opposite, not the 
kind of flexibility that I think people in public life have to 
have in order to reach an accommodation.
    I was very tough on the DC people. I said, look, we're not 
up here to dictate to the Congress what to do. I understand 
what your law says, and you've been able to work well with 
Federal agencies, and we want to have this dialogue.
    I must say, I regarded this as the kind of lapse. I have 
seldom seen, in the legislative process and public policy 
process, where one body says it's ``all or nothing.'' Where 
there's historic preservation concerns, it seems to me that, 
even without this law, there should have been the notion that 
we would want to pay some respect to the fact that there was a 
historic building here and we're going to have to tear it down.
    Mr. Hefley, they did have to tear it down. There is no way 
in which they could have built the child-care center and left 
this brownstone standing. So reaching an accommodation, where 
the Architect would have gotten virtually all of what he wanted 
in any case, would have been possible, it seems to me.
    Mr. Hefley. Thank you, Mr. Chairman.
    Mr Hansen. Thank you.
    The gentleman from Puerto Rico, the Ranking Member, Mr. 
Romero-Barcelo.

STATEMENT OF HON. CARLOS ROMERO-BARCELO, A DELEGATE IN CONGRESS 
              FROM THE COMMONWEALTH OF PUERTO RICO

    Mr. Romero-Barcelo. Thank you, Mr. Chairman. I want to 
thank Mrs. Holmes for her testimony, and I apologize for not 
having been here when she started. I received an urgent 
telephone call just as I was leaving and I had to take care of 
it before I came here.
    I would just like to make a brief statement in support of 
this bill. The National Historic Preservation Act was 
established as a comprehensive program through which Federal, 
state, tribal and local historic resources have been protected. 
The National Register of Historic Places now has more than 
62,000 sites listed.
    The Governor of each state and U.S. Territory appoints a 
State Historic Preservation Officer to administer the historic 
preservation program within its boundaries. Several Indian 
tribes have now undertaken historic preservation programs on 
reservations, and the Advisory Council on Historic Preservation 
advises the President and Congress and makes recommendations to 
help coordinate preservation activities.
    This successful program shows what can be done when 
government at each level is willing to work together for a 
common cause--the protection and preservation of our culture 
and our history.
    The bill before us today would extend the authorization of 
funds for the Historic Preservation Fund and the Advisory 
Council on Historic Preservation through fiscal year 2005. We 
wholeheartedly support extending this authorization. We would 
note that the Department of the Interior submitted draft 
legislation to the Speaker of the House last week to accomplish 
this very purpose.
    H.R. 834 goes on to make two minor changes to the National 
Historic Preservation Act as well. These changes clarify the 
applicability of historic preservation laws to the Architect of 
the Capitol and codify an Executive order dealing with 
consideration by Federal agencies to using historic properties.
    Mr. Chairman, we believe that this bill is a very 
reasonable proposal and we look forward to the testimony of the 
other witnesses on this matter.
    Thank you.
    [The prepared statement of Mr. Romero-Barcelo follows:]

 STATEMENT OF HON. CARLOS ROMERO-BARCELO, A DELEGATE IN CONGRESS FROM 
                      THE TERRITORY OF PUERTO RICO

    Mr. Chairman, today we will receive testimony on H.R. 834, 
introduced by our colleague Mr. Hefley to reauthorize funding 
for the National Historic Preservation Fund and the Advisory 
Council on Historic Preservation, as well as make several minor 
changes to the National Historic Preservation Act.
    The National Historic Preservation Act, enacted in 1966, 
established a comprehensive program through which Federal, 
state, tribal, and local historic resources have been 
protected. The National Register of Historic Places now has 
more than 62,000 sites listed. The Governor of each state and 
U.S. Territory appoints a State Historic Preservation Officer 
to administer the historic preservation program within its 
boundaries. Several Indian Tribes have now undertaken historic 
preservation programs on reservations and the Advisory Council 
on Historic Preservation advises the President and Congress and 
makes recommendations to help coordinate preservation 
activities. This successful program shows what can be done when 
government at each level is willing to work together for a 
common cause--the protection and preservation of our culture 
and our history.
    The bill before us today would extend the authorization of 
funds for the Historic Preservation Fund and the Advisory 
Council on Historic Preservation through fiscal year 2005. We 
whole heartedly support extending this authorization. We would 
note that the Department of the Interior submitted draft 
legislation to the Speaker of the House last week to accomplish 
this very purpose.
    H.R. 834 goes on to make two other minor changes to the 
National Historic Preservation Act as well. These changes 
clarify the applicability of historic preservation laws to the 
Architect of the Capitol and codify an Executive Order dealing 
with consideration by Federal agencies to using historic 
properties.
    Mr. Chairman, this bill is a reasonable proposal and we 
look forward to the testimony of our witnesses on this matter.

    Mr Hansen. I thank the gentleman.
    The gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. No questions, Mr. Chairman.
    Mr Hansen. The gentleman from Colorado, Mr. Udall.
    Mr. Udall of Colorado. Thank you, Mr. Chairman. I don't 
have any questions at this time.
    Mr Hansen. The gentleman from Washington.
    Mr. Inslee. No questions.
    Mr Hansen. Thank you.
    We certainly appreciate your testimony. If you would like 
to join us on the dais, we would be more than happy to have you 
with us.
    Ms. Norton. Thank you, anyway, Mr. Chairman. I am due to 
testify someplace else. I thank you once again for the 
attention you have given to the bill, and particularly to this 
section affecting the District.
    Mr. Hefley, before you came, I particularly gave my thanks 
to you for reintroducing the bill, and for crafting a bill that 
I think is of great significance.
    Mr Hansen. Thank you so much.
    Mr Hansen. It is always an honor and a pleasure to have 
with us Robert Stanton, the Director of the National Park 
Service. Also, we have Eric Hertfelder, Executive Director, 
National Conference of State Historic Preservation Officers, 
and Tamar Osterman, Director of Policy Research, National Trust 
for Historic Preservation. We all you all to come up.
    Mr. Director, again it's a pleasure to have you with us. We 
are always honored to have you here. We will turn the time over 
to you, sir.

  STATEMENT OF ROBERT STANTON, DIRECTOR, NATIONAL PARK SERVICE

    Mr. Stanton. Thank you very much, Mr. Chairman, Mr. Romero-
Barcelo, and distinguished members of the Subcommittee. It is 
my pleasure to appear before you and to present to you the 
Department of Interior's views on H.R. 834, a bill to extend 
the authorization for the National Historic Preservation Fund 
and for other purposes.
    Mr. Chairman, I would just like to summarize my formal 
testimony, of which I have a copy, and with your permission, I 
would like to submit this for the record.
    Mr Hansen. All of the statements will be included in the 
record in their completeness. We appreciate your summaries. 
Without objection, so ordered.
    Mr. Stanton. Thank you again, Mr. Chairman. Again, it's an 
honor to appear before you and to be here with my distinguished 
colleagues from the Conference of State Historic Preservation 
Officers and the National Trust for Historic Preservation.
    I am also accompanied by Miss Kay Stevenson, who is the 
National Park Services' Associate Director for Cultural 
Resource Stewardship and Partnerships.
    Mr. Chairman and members of the Committee, the Department 
of Interior strongly supports H.R. 834. In particular, we 
endorse the reauthorization of the Historic Preservation Fund 
and the Advisory Council on Historic Preservation through the 
year 2005.
    On April 12, 1999, the administration submitted a bill to 
Congress for its consideration with respect to the authorizing 
the extension of the Historic Preservation Fund and the 
Advisory Council. Certainly the Historic Preservation Fund has 
helped our Nation to preserve the cultural resources that are 
held in trust by the Federal Government and by local/state 
governments, as well as private individuals.
    Approximately 1,600 new listings are added to the National 
Register annually, bringing the total now to over 69,000 
properties that have been recognized by local communities, 
state officials, preservation and conservation organizations 
and, indeed, officials in the Federal Government. Those places 
and artifacts and other properties really commemorate our rich 
cultural heritage.
    Also, the Historic Preservation Fund assists the State 
Historic Preservation Officers, who provide, on a day to day 
basis, assistance to individuals and organizations in 
identifying and in preserving again properties that are 
considered important to our cultural heritage. We certainly 
enjoy our partnership with the State Historic Preservation 
Officers and their staffs.
    This Fund has made available to the states, on average, 
roughly half a million dollars annually to assist the states in 
carrying out their individual responsibilities. Roughly 90 
percent of these funds are used directly by the individual 
states and the Trust Territories in carrying out historic 
preservation activities, including tribal governments.
    The Historic Preservation Fund, I should again underscore 
the importance to the rich cultural diversity, in that it does 
assist, as I mentioned earlier, the tribal governments in 
carrying out preservation of tribal resources that are not only 
for the benefit of the tribes themselves, but, indeed, to all 
of us as a Nation.
    Also, we have been able to work closely with the leadership 
of many of our Historically Black Colleges and Universities. 
Many of these institutions were established after the Civil 
War, during the era in which members of our society moved from 
an enslaved condition into an era of freedom. Many colleges and 
universities were established specifically by various religious 
denominations and others to meet the educational needs of those 
who have moved into freedom. Many of these properties are very 
rich and are again reflective of our rich cultural heritage. 
Through this program, we have been able to assist many of those 
colleges in preserving their resources.
    One of the real highlights of this authorization is a great 
partnership between the Federal and state governments and the 
private sector with respect to the Federal Tax Incentives for 
Rehabilitating Historic Buildings program. This is a great 
Federal/state and private partnership that has in the past 
leveraged something like over $400 million in tax credits, 
resulting in roughly $2 billion in private investment, again a 
great partnership in which the private sector is contributing 
to the preservation of our cultural heritage. Certainly this 
program remains a very highly cost-effective cornerstone of our 
public policy for historic preservation.
    Lastly, the Act creates and provides assistance to the 
Advisory Council on Historic Preservation, which is a policy 
advisor to the Federal Government on historic preservation. We 
work very closely, on a day to day basis, with the Advisory 
Council, as well as the State Historic Preservation Officers. 
This is a great organization that assists us in giving good 
advice, not only to the Federal Government but, indeed, to the 
states and the private sector in various communities, in terms 
of how we can best work in achieving the preservation of our 
cultural heritage.
    Lastly, I want to commend, on behalf of the Department of 
Interior and, indeed, the administration, the leadership of 
Representative Hefley for introducing this bill, and certainly 
to you, Mr. Chairman, and members of this Committee, for your 
support of this measure.
    That concludes my overall summary comments, Mr. Chairman. 
As I mentioned earlier, we do have written testimony for the 
record.
    I would be more than happy to respond to any comments or 
questions you may have. Certainly, if it should be the will of 
the Committee, I would feel free to call upon Miss Kay 
Stevenson to assist in responding as well.
    Thank you again, Mr. Chairman, and members of the 
Committee, for this opportunity.
    [The prepared statement of Mr. Stanton follows:]

    [GRAPHIC] [TIFF OMITTED] T4983.004
    
    [GRAPHIC] [TIFF OMITTED] T4983.005
    
    [GRAPHIC] [TIFF OMITTED] T4983.006
    
    [GRAPHIC] [TIFF OMITTED] T4983.007
    
    [GRAPHIC] [TIFF OMITTED] T4983.008
    
    [GRAPHIC] [TIFF OMITTED] T4983.009
    
    [GRAPHIC] [TIFF OMITTED] T4983.010
    
    [GRAPHIC] [TIFF OMITTED] T4983.011
    
    Mr Hansen. Thank you. We appreciate your testimony.
    Mr. Hertfelder.

  STATEMENT OF ERIC HERTFELDER, EXECUTIVE DIRECTOR, NATIONAL 
       CONFERENCE OF STATE HISTORIC PRESERVATION OFFICERS

    Mr. Hertfelder. Thank you, Mr. Chairman.
    Thank you, Mr. Chairman, and members of the Committee, for 
having this hearing today on H.R. 834. We would also like to 
thank Mr. Hefley for taking the lead to reauthorize critical 
elements of the National Historic Preservation Act, the 
deposits to the Historic Preservation Fund, and funding for the 
Advisory Council on Historic Preservation.
    Our detailed comments on all of the sections of the bill is 
provided in our written testimony, which I assume will be in 
the record. In summary, we support all the provisions of the 
bill, and my remarks today will focus on the role of the 
states.
    The National Historic Preservation Act is a model Federal 
program in many ways, and the Historic Preservation Fund is the 
fuel that keeps this program working. With the passage of the 
Act in 1966, which was a time of rapid change and disruption of 
major landmarks across the country, the Congress created the 
Federal Government's first and only comprehensive historic 
preservation program. Unlike many other Federal programs, 
however, this one was and remains based on a partnership with 
state, local and tribal governments, in which those governments 
actually deliver the program benefits and services to the 
public and, in addition, provide half the funding for the 
program. This reliance on others to do the administration and 
provide funding is, thus, a great return on investment for the 
Federal Government.
    It is also a voluntary program, with a stress on making 
information on historic sites available to the public, to 
promote informed decision making, and providing incentives to 
the private sector to keep historic structures in productive 
use. The most remarkable example of the success of this 
approach is the program that Director Stanton mentioned, the 
historic rehabilitation tax credits, which are now generating 
$2 billion a year in private investment.
    Finally, this is a program where the emphasis is getting 
the decisions and the resources out of Washington and to the 
state and local level. Each of the State Historic Preservation 
Offices and certified local governments is a field office for 
the Secretary of the Interior and the National Park Service for 
the Federal historic preservation program, but one which 
operates based upon and attuned to local needs and priorities.
    The states are proud to be a partner with the Federal 
Government to carry out this important program, but because it 
is a Federal program and the states carry out the Federal 
responsibilities, it is important that the Federal funding 
continue and be enhanced to keep up with public demand and 
increasing workloads.
    The principle behind the Historic Preservation Fund is a 
powerful and practical idea: to dedicate revenues from the 
depletion of one national resource to the conservation of 
others. There may be a time when the OCS revenues will decline 
or cease and our conservation programs will then have to work 
against a declining balance. However, we should not cut off the 
funding stream prematurely, as this will limit Congress' 
options in the future and, we think, send a bad signal to all 
the Federal Government's partners in this program, without whom 
the program will fail.
    Finally, preserving the Nation's heritage is no accident. 
It requires substantial and steady support for the long haul, 
and the active participation of all levels of government, as 
well as the private sector.
    Historic sites are never permanently saved, except in 
photographs. To have the real thing available, to foster 
community pride and sense of place, and to provide new 
opportunities for economic development, requires ongoing 
maintenance and timely expert assistance. The Historic 
Preservation Fund, with its dedicated funding source for the 
programs of the National Historic Preservation Act, is the 
embodiment of this principle, and the states urge Congress to 
reauthorize the deposits to the Fund as quickly as possible.
    Thank you.
    [The prepared statement of Mr. Hertfelder follows:]

    STATEMENT OF MR. HERTFELDER, NATIONAL HISTORIC PRESERVATION FUND

    The National Conference of State Historic Preservation 
Officers urges the House to pass H.R. 834. Among other 
provisions, the bill would extend to the year 2005 the 
authorization for deposits from offshore oil lease revenues 
into the Historic Preservation Fund and the authorization of 
the Advisory Council on Historic Preservation.
    These two provisions (Section I Paragraph (4) of H. R. 834 
for the Historic Preservation Fund and Section 1 Paragraph (6) 
for the Council) are priorities for the National Conference. We 
believe the extensions to 2005 are non-partisan and essential 
for continuing two key elements of the Nation's historic 
preservation program.

INTRODUCTION AND EXPRESSION OF THANKS

    The National Conference of State Historic Preservation 
Officers is the organization of the gubernatorially appointed 
officials in each State, territory and the District of Columbia 
who carry out the Nation's historic preservation program for 
the Secretary of the Interior and the Advisory Council on 
Historic Preservation as provided for in the National Historic 
Preservation Act.
    This is a program that truly embodies the principles of 
federalism. For over three decades, States have willingly 
worked with the Federal Government to provide the 
infrastructure for historic preservation because our common 
heritage merits a coordinated, team approach from government 
while permitting variations for local conditions. That said, we 
fully acknowledge that the true work of historic preservation 
is carried out by the private sector, those millions of 
individuals who voluntarily accomplish historic preservation. 
The role of government--Federal and State--is to facilitate and 
encourage private efforts.
    The National Conference and the State Historic Preservation 
Officers extend their thanks to Subcommittee Chairman James 
Hansen and Representative Joel Hefley for acknowledging the 
importance of the national historic preservation program by 
holding this hearing. We appreciate all efforts to expedite 
passage of H. R. 834.

SCOPE OF TESTIMONY

    The National Conference represents State governments. While 
we fully support the establishment of Tribal Preservation 
Offices (Section 101(d) of the 1992 amendments to the Act), we 
would not presume to speak on behalf of Native American 
historic preservation activities.

WHAT THE HISTORIC PRESERVATION FUND DOES

    Congress established the Historic Preservation Fund to 
provide an income stream for the enhancement of historic, non-
renewable resources. To do this, Congress used a portion of the 
revenues earned from the depletion of a non-renewable natural 
resource, offshore oil.
    The Historic Preservation Fund has been a good investment. 
The annual withdrawals that Congress appropriates for the 
States have established historic preservation as a viable 
option for private citizens nationwide and a planning 
requirement for Federal agencies. Further, States have 
responded by providing an equal match to the Federal dollars, 
adding a State-government commitment to historic preservation 
and coloring the national approach to suit the varied 
conditions and history of this Nation.
    The Historic Preservation Fund, when matched by the States 
and conducted by the State Historic Preservation Officers, 
provides a point of contact for private citizens interested in 
preserving their heritage. The national preservation program 
helps interested property owners identify and obtain 
recognition of significant places (National Register), and 
obtain financial incentives for preservation of income-
producing properties through income tax credits. The program 
also provides for local governments to participate in the 
Federal program. These preservation services follow national 
standards set by the National Park Service ensuring a degree of 
consistency and quality control. State decisions on historic 
significance come from a store of knowledge about historic 
places found in the inventories each State maintains. Such 
databases on historic buildings and sites are a tremendous 
resource for understanding American history, not from the top 
down, but from the ground level of individuals and communities 
across America. The on-going progress in digitizing historic 
inventory information has unlimited potential to expedite and 
facilitate understanding of our history through educational 
programs and heritage tourism.
    Today the information on historic places and their location 
is used most often in the consultations between State Historic 
Preservation Officers and Federal agencies planning 
undertakings. While the National Historic Preservation Act can 
not determine the outcome of a Federal project, Section 106 
does require that Federal agencies consider historic places as 
they plan projects. This sometimes puts State Historic 
Preservation Officers in the cross fire between the proponents 
and opponents of a project. However, of the 100,000 Federal 
undertakings the State Historic Preservation Officers review 
each year, less than a dozen fail to be resolved and need to be 
considered by the full Advisory Council on Historic 
Preservation. This mandated consultation about historic 
preservation among Federal agencies, States and other 
interested parties provides effective consideration for our 
heritage as a part of Federal project planning.
    If the Historic Preservation Fund were nor reauthorized, we 
could not realistically expect the States to fund the national 
historic preservation program by themselves. Who then would 
assist property owners seeking National Register listing? Who 
would help preservation-minded developers seeking the 20 
percent historic rehabilitation investment tax credit? How 
would Federal agencies meet project schedules while they seek 
the Council's comments? How could our communities realize the 
economic, educational and cultural benefits they now realize 
from the identification, preservation and use of their historic 
resources? Who would make up the losses to neighborhood 
revitalization, heritage tourism, community identity, the 
education of our children, the ability to attract new 
investment, and the quality of life for communities across 
America?
    The nation reaps these benefits from this far-reaching and 
efficient economic development program, although currently its 
annual cost to the Federal treasury is about one hour's 
expenditure ($30 million) at the Department of Defense. Yet 
with last year's $30 million appropriation, the Congress 
leveraged $2 billion in construction dollars through the 
historic rehabilitation tax credit alone.
    The Historic Preservation Fund has made possible a well 
functioning team where the Federal Government sets the 
standards, the States do the work and the Congress determines 
the level of effort (through the appropriations process).

    COTERMINOUS AUTHORIZATONS: HPF AND THE COUNCIL

    The National Conference believes that it makes sense to set 
the Historic Preservation Fund and the Advisory Council on 
Historic Preservation on the same review schedule, and we 
strongly support setting the date for Congressional review for 
both at 2005. The Advisory Council fulfills an essential 
Federal role in the national historic preservation program, 
developing and implementing the review process whereby Federal 
agencies consider the impact of their projects on historic 
properties. As with many other parts of the national program, 
the Council relies upon the State Historic Preservation 
Officers to assist in this process, and the States' 
participation in this Federal program is made possible by the 
support from the Historic Preservation Fund.

VIEWS OF THE NATIONAL CONFERENCE ON H.R. 834

    Paragraph (1) Authorization of funding for the National 
Trust
    The National Conference acknowledges the role of the 
National Trust in the private sector and supports the ability 
of the Congress to choose this private organization as a 
conduit for grants for national emergencies, among other 
things.

    Paragraph (2) Re-designation of subsections
    This paragraph re-designates two subsections in Section 102 
of the National Historic Preservation Act: Subsection 102(d) as 
Subsection 102(e) and Subsection 102(e) as Subsection 102(f). 
The National Conference cannot find a new, proposed Subsection 
102(d in H. R. 834. We believe this paragraph should be dropped 
as it serves no purpose.

    Paragraph (3) Definition of exemptions for Capitol, White 
House and Supreme Court
    The intent of this provision amending Section 107, which 
the National Conference supports, is to clarify which 
properties under the jurisdiction of the Architect of the 
Capitol should be exempt from Section 106 of the Act. The areas 
related to the White House and the Supreme Court are well 
understood. It is the definition of what land constitutes ``the 
Capitol'' that has caused controversy. The bill refers to a map 
as the definition of ``the Capitol.'' We understand that this 
map is updated periodically and may therefore not be a good 
reference point. We also understand that uncertainty exists as 
to whether the Architect of the Capitol constitutes a ``Federal 
agency'' subject to compliance with Section 106.
    Therefore, the National Conference believes the goals of 
H.R. 834 are to clarify the area, defined as the Capitol, 
exempted in Section 107 of the Act as a ``campus'' that 
includes the Capitol building itself and the current House and 
Senate office buildings with the associated grounds. H.R. 834 
needs to make clear that when the Architect of the Capitol acts 
``off campus,'' Section 106 applies to the actions of the 
Architect. This concept reflects the current language of 
Section 107: ``. .  the United States Capitol and its related 
buildings and grounds.''

    Paragraph (4) Extension of the authorization of the 
Historic Preservation Fund
    The National Conference wholeheartedly supports this 
provision.

    Paragraph (7) Location of Federal facilities in historic 
downtowns
    Historic preservationists support the idea of using 
existing buildings in existing communities with existing 
infrastructure and transportation networks versus building new 
buildings and new infrastructure and new parking lots in the 
countryside. The President's Executive Order 13006 directs 
Federal agencies to do this, among other things. The National 
Conference supports codification of this portion of the 
Executive Order, although the opposition of the General 
Services Administration to this provision as originally drafted 
in H.R. 834 is cause for skepticism as to whether this approach 
will yield results.

    Paragraph (5) Editorial changes in Section 110(l)
    The National Conference supports this editorial change, as 
it increases the flexibility, for agencies as they comply with 
the National Historic Preservation Act.

    Paragraph (6) Extension of the Council's authorization
    The National Conference wholeheartedly supports this 
provision.

ADDITONAL CONCERNS OF THE NATIONAL CONFERENCE

    Section 101(e)(3)(A) of the National Historic Preservation 
Act makes it clear that only 10 percent of the Historic 
Preservation Fund appropriation is to go for direct grants of 
the Secretary of the Interior. The primary purpose of the 
Historic Preservation Fund is to finance the implementation of 
the nation's historic preservation program carried out by 
State, tribal and local governments. The Fund is not intended 
for funding Federal projects. (Section 110 of the Act indicates 
Federal preservation programs are to be funded out of Federal 
agency budgets.) Nevertheless, in fiscal year 1999, 60 percent 
of the Historic Preservation Fund appropriation went to direct 
grants of the Secretary of the Interior. The actual use of off 
shore oil revenues is ``out of balance.'' The intent of the 
Historic Preservation Fund is to fund State, tribal and local 
governments. Ignoring this intent puts the 95 percent of the 
nation's historic properties that exist outside Federal 
ownership at risk.
    The National Conference appreciates the opportunity to 
raise this concern with the Subcommittee.
    Thank you for the opportunity to present our views.

    Mr Hansen. Thank you.
    Tamar Osterman.

   STATEMENT OF TAMAR OSTERMAN, DIRECTOR OF POLICY RESEARCH, 
            NATIONAL TRUST FOR HISTORIC PRESERVATION

    Ms. Osterman. Thank you, Mr. Chairman, members of the 
Committee. It's a pleasure to appear before you today to 
testify in support of H.R. 834. We want to commend Congressman 
Hefley, and you and the Subcommittee, for the leadership and 
support you have shown for historic preservation.
    The National Trust for Historic Preservation is a nonprofit 
organization, with more than 270,000 members. We were chartered 
by Congress 50 years ago this year to promote public 
participation and education in historic preservation, and to 
engage the private sector in preserving our Nation's heritage. 
We work closely with Federal, state and local governments and 
citizens all over the country who are working not only to 
preserve their past but to build a better future. The National 
Historic Preservation Act and the Historic Preservation Fund 
are very important tools and, really, the cornerstone of that 
effort.
    We enthusiastically endorse H.R. 834, and I want to mention 
several specific issues that are important to us.
    First of all, reauthorization of the deposits to the 
Historic Preservation fund to 2005 is a top priority of the 
Trust. The states and tribes and certified local governments 
utilize this funding to achieve the responsibilities with which 
they are charged in the National Historic Preservation Act of 
1966, which Mr. Hertfelder just enumerated.
    Through these activities, Federal funding for historic 
preservation not only preserves our Nation's historical legacy, 
but it also creates jobs, promotes local economic development, 
and it produces a much larger financial commitment from private 
sources, as well as other public sources.
    Second, we strongly support the language in H.R. 834 that 
would provide statutory support to Executive Order 13006, 
signed by President Clinton in 1996, which calls on GSA and 
other Federal agencies to first consider historic districts and 
historic buildings in downtown areas when selecting sites for 
new Federal facilities.
    We believe that this provision will support GSA's efforts 
to implement the Executive order. We know that they have 
recently issued very effective implementing guidelines, and we 
feel this legislation would strengthen their work.
    Third, we support the language in section 1 of H.R. 834 
that would authorize the Trust to continue to receive funding 
through the Historic Preservation Fund.
    Four years ago, the National Trust and Congress negotiated 
an agreement for the National Trust to phase out its Federal 
appropriation. Beginning this year, fiscal year 1999, the 
National Trust no longer receives an appropriation to support 
its operations, but from time to time Congress and the National 
Park Service and other agencies have determined that the 
National Trust is the best provider of historic preservation 
assistance to communities, particularly with regard to disaster 
assistance. Congressional authorization facilitates the release 
of funding and project management responsibilities to the 
National Trust. It ensures a quality control framework and that 
assistance will be provided quickly to communities in need.
    Fourth, we support language that would extend the Advisory 
Council on Historic Preservation's authorization to 2005 and 
make its authorization schedule coterminous with that of the 
Historic Preservation Fund's. The Advisory Council, on which 
the National Trust serves, plays an important role in ensuring 
that the impact of Federal projects on historic resources is 
taken into account.
    It occurs to me, after listening to Congresswoman Norton's 
statement, that this is exactly the kind of situation which the 
Council is uniquely equipped to assist, to come in and try to 
help parties work out a settlement on scenarios and sites where 
there has been some conflict.
    Extending the Council's authorization is important to those 
kinds of efforts, and coordinating that with the Historic 
Preservation Fund will make things easier for everyone.
    Finally, the National Trust also supports the language to 
amend section 107 of the National Historic Preservation Act, to 
clarify and limit the exemption from the Act to the White House 
and its grounds, the Supreme Court buildings and its grounds, 
and the Capitol and its related buildings and grounds.
    We believe that this is an appropriate enumeration of the 
Architect of the Capitol's jurisdiction with regard to section 
107. Moreover, it is consistent with the legislative history of 
the National Historic Preservation Act of 1966, and 
congressional intent, as enumerated in the report of that 
initial passage of the Act, which specifically mentions 
principal buildings and grounds.
    Mr. Chairman, this concludes my testimony on H.R. 834. The 
Trust enthusiastically supports this bill, and we thank you for 
the opportunity to testify.
    [The prepared statement of Ms. Osterman follows:]

  STATEMENT OF TAMAR OSTERMAN, DIRECTOR OF POLICY RESEARCH, NATIONAL 
                    TRUST FOR HISTORIC PRESERVATION

    Mr. Chairman, members of the Subcommittee, it is a pleasure 
to appear before you to testify regarding H.R. 834, legislation 
to extend the authorization of deposits to the Historic 
Preservation Fund, and for other purposes.
    The National Trust for Historic Preservation is a non-
profit organization with more than 270,000 members, chartered 
by Congress to promote public participation and education in 
historic preservation and to engage the private sector in 
preserving our nation's heritage. As the leader of the national 
historic preservation movement, the National Trust is committed 
to saving America's diverse historic places and to preserving 
and revitalizing communities nationwide.
    Congress established the Historic Preservation Fund (HPF) 
under the National Historic Preservation Act of 1966. The 
Historic Preservation Fund is capitalized by royalties paid to 
the Federal Government from Outer Continental Shelf oil 
drilling leases. Approximately $150 million flows into the Fund 
every year. Historically, Congress has appropriated a fraction 
of this amount--almost $41 million in Fiscal Year 1998--through 
the National Park Service. In Fiscal Year 1999, this amount was 
increased to $72 million for the first year of the Save 
America's Treasures program. Annual appropriations from the HPF 
provide key support to the preservation activities of the state 
historic preservation offices, Indian tribes and Native 
Hawai'ian organizations, and historically black colleges and 
universities. Authorization for funding from the HPF to each of 
these entities is provided in the National Historic 
Preservation Act.
    The National Trust strongly endorses extending to 2005 the 
reauthorization of deposits to the Historic Preservation Fund. 
HPF dollars help achieve the Congressionally-mandated objective 
of preserving our Nation's invaluable historic and cultural 
heritage for the education, benefit, and use of present and 
future generations. The States, Tribes, and Certified Local 
Governments utilize this funding to achieve the 
responsibilities with which they are charged in the National 
Historic Preservation Act. Through these activities, Federal 
funding for historic preservation not only preserves our 
nation's historical legacy but also creates jobs, promotes 
local economic development, and produces much larger financial 
commitments from private sources as well as other public 
sources.
    The reauthorization of the Historic Preservation Fund is a 
legislative priority for the National Trust and therefore we 
enthusiastically support H.R. 834 for proposing to accomplish 
this end. We commend and thank Congressman Hefley for his 
support for historic preservation and the Historic Preservation 
Fund.
    I want to take this opportunity to elaborate upon two other 
provisions of H.R. 834 that are of particular interest to the 
National Trust. H.R. 834 would provide statutory support to 
Executive Order 13006, signed by President Clinton in 1996, 
which calls on the General Services Administration and other 
Federal agencies to first consider historic districts and 
historic buildings in downtown areas when selecting sites for 
Federal facilities. Historic preservation often involves real 
estate activity, and historic buildings must be used in order 
to be preserved. Directing the Federal Government's 
considerable property acquisition and leasing requirements 
toward historic resources will significantly assist in that 
effort. In addition, by locating Federal facilities in historic 
downtown areas, the Federal Government will be assisting local 
economic revitalization efforts and will save taxpayer dollars 
on land use and infrastructure development.
    The National Trust was an early advocate for this executive 
order, and we are presently working closely with the General 
Services Administration on its implementation. We believe that 
codifying this executive order in law will significantly assist 
in that effort. Making Executive Order 13006 a part of the 
National Historic Preservation Act will hold Federal agencies 
accountable to law, and will improve its chances for broad 
implementation.
    Moreover, amending Section 110 of the National Historic 
Preservation Act to incorporate portions of Executive Order 
13006 could help improve the Federal land managing agencies' 
implementation of that portion of the Act, which details 
Federal agencies' responsibility to preserve and use historic 
buildings. Over the last several years, the National Trust has 
become increasingly engaged in the issues surrounding the 
Federal Government's stewardship of its historic resources, 
broadening this interest beyond the traditional purview of the 
historic resources managed as national park units. We have 
discovered, regrettably, that although good management of 
historic resources rarely conflicts with agency missions and 
responsibilities, in far too many cases there is missing a 
broad commitment to fulfillment of Section 110 requirements.
    We believe that Federal agencies, particularly the 
Department of Defense, the Department of the Interior, and the 
General Services Administration, which control a great deal of 
historic lands and resources, need to be held accountable to 
their Section 110 responsibilities. We will continue to work 
with our preservation partners, and with Federal agencies to 
better achieve this goal. We commend this Committee, as the 
committee of jurisdiction for historic resources, for taking an 
active interest in this matter, first with the passage of H.R. 
1522, and now with consideration of H.R. 834. We urge that 
appropriate provisions of Executive Order 13006 be incorporated 
into law, as proposed in H.R. 1522 and H.R. 834.
    The National Trust also strongly supports Section 1 (3) in 
H.R. 834. This provision would amend Section 107 of the 
National Historic Preservation Act, which exempts the White 
House and its grounds, the Supreme Court building and its 
grounds, and the United States Capitol and its related 
buildings and grounds from the Act. Our most recent experience 
with Section 107 comes from our involvement in 1996 with the 
Stanton Park Neighborhood Association, and other District of 
Columbia preservation partners, as well as Delegate Eleanor 
Holmes Norton and other Members of Congress, in an effort to 
oppose demolition of a contributing 19th century rowhouse in 
the Capitol Hill Historic District owned by the legislative 
branch. The demolition had been ordered by the then-Architect 
of the Capitol in order that a new building could be 
constructed to house the Senate day care facility, a privately-
operated enterprise.
    This property, which has since been demolished, was located 
in the middle of a commercial and residential neighborhood 
several blocks from the Capitol grounds. We believe that this 
demolition was an unreasonable interpretation of the Section 
107 exemption and was inconsistent with the legislative history 
of the National Historic Preservation Act. When the House of 
Representatives passed the NHPA in 1966, the House Committee on 
Interior and Insular Affairs included report language that 
specifically defined the intent of Congress in granting the 
Section 107 exemption, by specifying that this exemption be for 
``principal buildings and grounds.'' (``House Interior and 
Insular Affairs Committee, House Report 1916, August 30, 1966, 
to accompany S. 3035.'')
    H.R. 834 proposes to limit the Section 107 exemption to the 
White House and its grounds, the Supreme Court building and its 
grounds, or the United States Capitol and its related buildings 
and grounds, with a relevant cartographic citation. The 
National Trust supports this provision as an appropriate 
enumeration of the Architect of the Capitol's jurisdiction with 
regard to Section 107 and as consistent with the legislative 
history of the National Historic Preservation Act of 1966 and 
Congressional intent.
    Mr. Chairman, this concludes my prepared testimony on H.R. 
834. The National Trust enthusiastically supports this 
legislation, and I thank you for the opportunity to testify 
before this Subcommittee.

    Mr Hansen. Thank you very much.
    Questions for the panel? The gentleman from Puerto Rico.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman.
    Mr. Chairman, I have a question for Mr. Stanton, not 
directly related to the issue here, but related to the Historic 
Preservation Act.
    This Act provides support to the Historically Black 
Colleges and Universities for the restoration of their historic 
campus properties. Is there a reason why it doesn't provide the 
same for the Hispanic-serving institutions?
    Mr. Stanton. Thank you very much for the question.
    Three years ago, I believe, there was a measure enacted in 
Congress that specifically asked that funding be earmarked for 
a select number of Historically Black Colleges and 
Universities, so it does not necessarily preclude other 
colleges and universities, through the normal grant process, of 
applying, as long as it has been determined by local and state 
officials--in this instance, a Commonwealth official--that it 
is historic and should be preserved.
    So no one is excluded, necessarily, other than Congress 
asking specifically that we give some priority attention to 
Historically Black Colleges and Universities, that had 
prominent cultural resources that were deteriorating at a rapid 
pace. Many of these are over a hundred years old.
    Mr. Romero-Barcelo. There are several campuses throughout 
the Southwest, from Texas to California, and----
    Mr. Stanton. They are eligible to compete, that is correct, 
sir.
    Mr. Romero-Barcelo. [continuing] and in Florida, and also 
Puerto Rico.
    Mr. Stanton. That is correct.
    Mr. Romero-Barcelo. Thank you very much.
    Mr. Stanton. Thank you.
    Mr Hansen. The gentleman from Colorado, Mr. Hefley.
    Mr. Hefley. Thank you. I appreciate all of your testimony.
    I'm curious. You know, I guess the first Executive order 
was in '71 by Nixon, dealing with the Federal Government's 
Federal agencies and historic preservation. What since that 
time has been the government's record, and more specifically, 
before the moratorium on visitor centers three years ago, what 
was the record of government agencies in utilizing historic 
buildings for visitor centers and for other purposes? I guess 
maybe the Park Service particularly would be where I direct 
that question.
    Mr. Stanton. Yes. We have as a policy, Mr. Hefley, a 
priority to give consideration to historic properties that are 
under the jurisdiction of the National Park Service throughout 
the National Park System, and many of our parks are located in 
developed areas--some, obviously, in more remote rural areas. 
But in those instance in which we can adaptively use a historic 
structure for a visitor center, administrative purposes of all 
sorts, we attempt to do that.
    Also, Congress has given us authorization to lease, under 
certain conditions, historic properties located in our parks to 
nongovernmental entities, on a rehabilitation basis or they 
could pay an appropriate fee for the use of the structure that 
adds towards the preservation of those cultural resources. But, 
by and large, our thrust is to make adaptive use of cultural 
resources for contemporary purposes.
    Mr. Hefley. Under present law, the words ``to the maximum 
extent feasible'' are used, while in H.R. 834 we have changed 
the language to ``when operationally appropriate and 
economically prudent.''
    Could you or any of the other panelists speak to those two 
phrases on what different that might or might not make, either 
for good or bad, in this legislation?
    Mr. Stanton. I would comment, Mr. Hefley, I think from two 
perspectives.
    One is, obviously, within the National Park Service, we 
have an organic Act with respect to those resources that are 
not our direct responsibility. We are responsible for 
preserving cultural resources in various parks throughout the 
system. But for those cultural resources, we have to make some 
engineering and architectural evaluation in terms of whether or 
not a structure could be modified in a reasonable way to 
accommodate a contemporary use.
    Then, I believe, also the legislation and the Executive 
order would speak to those instances in which the General 
Services Administration would be constructing or otherwise 
leasing buildings to meet certain office or other kinds of 
administrative needs for Federal agencies throughout the 
country and the Executive order speak to the General Services 
Administration in looking at historic properties to meet the 
needs of the Federal Government, and obviously to try to adapt 
to the use of historic properties, if it is determined to be 
cost effective and reasonable and prudent to do so.
    Mr. Hefley. Would your bottom line conclusion be that there 
is very little difference in how you would operate based upon 
those two phrases, the change in that phrase?
    Mr. Stanton. I would submit that there is not much 
difference. I think the spirit of it is the same.
    Mr. Hefley. Yes, I think you're right.
    Anyone else?
    Mr. Stanton. I would turn to my colleagues, with respect to 
some of their experiences in managing cultural resources.
    Mr. Hertfelder. Yes, I think I would agree, although--Mr. 
Hefley, you said the current language is ``to the maximum 
extent feasible'', and that is in which section?
    Mr. Hefley. I'm sorry, I don't have the citation here. 
Section 110.
    Mr. Stanton. I think that's the Executive order he's 
referring to.
    Mr. Hertfelder. I'm sorry. That's in the Executive order. I 
think, just hearing those two phrases, that they probably 
overlap pretty heavily.
    I think I would agree with the Director, that the statement 
of congressional intent, regardless of the exact words used, 
but having passed that section of the bill, would probably be 
the best tool for the public to understand what Federal 
agencies should do.
    I use the word ``tool'' advisedly, because I've come to 
think of historic preservation, or the way to do historic 
preservation, is you need to have a big ``tool kit'', which 
means you have to have not only a hammer but also a wrench, a 
screwdriver and, if you're smart, a ``band aid'' in it, too. 
The reason is you can't really predict what the situation is 
going to be or what a Federal agency is going to face in the 
future.
    But by having a structure throughout the country, in the 
state and local governments, with all the expertise they have 
under this Act--the Advisory Council with its dispute 
resolution expertise, and at the Federal level tax incentives, 
where perhaps there's a public/private partnership and you can 
entice a private developer to do something for the Federal 
Government to lease--having all those tools available, and 
you're never quite sure when you're going to need them, that 
allows those interests in preservation to have the best chance 
possible to have success. That's what this Act is all about.
    Mr Hansen. The gentleman from Colorado, Mr. Udall.
    Mr. Udall of Colorado. Thank you, Mr. Chairman. I just want 
to make a comment and then ask Director Stanton a question.
    I want to thank the dean of our Colorado delegation, Mr. 
Hefley, for bringing this legislation. I would like to be added 
as a cosponsor, if it wouldn't hurt your eventual prospects for 
the bill.
    [Laughter.]
    Mr. Hefley. I would be honored.
    Mr. Udall of Colorado. Great.
    I want to thank the panel for taking the time to appear 
before us today.
    I had a question for Director Stanton. You talked a little 
bit about tax credits and the value that they have for historic 
preservation. Are those in permanent law, or do they have to be 
reauthorized periodically?
    Mr. Stanton. The law gives us authority to grant tax 
incentives to a developer that would contribute towards the 
preservation of resources.
    But it has to go through an evaluative process, starting at 
the local level and ultimately coming to the National Park 
Service for final certification, that what has been proposed is 
consistent with the law and that, if it's acceptable, then the 
developer would be entitled, again under the law, to receive a 
tax benefit for the investment they would make. There is no 
sunset provision.
    Mr. Udall of Colorado. I'm sorry? There is no----
    Mr. Stanton. [coninuing] sunset provision.
    Mr. Udall of Colorado. No sunset provision. So they're in 
place and will continue to be available?
    Mr. Stanton. That's correct.
    Mr. Udall of Colorado. Thank you very much.
    Mr. Chairman, I yield back the rest of my time.
    Mr Hansen. The gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    I don't have any questions particularly, but I do want to 
say that I think this is a great program. I always have loved 
history.
    I notice in your literature that you're working to preserve 
some of the historic hotels. We have a beautiful old theater in 
downtown Knoxville called the ``Tennessee Theater'', which was 
built in 1927. A few years ago I think that theater was close 
to being demolished. Now it has been saved, and there are many 
examples like that all across the country. So I think this is a 
great program.
    Actually, I had the privilege of introducing the bill that 
allowed the funding to go to the Historically Black Colleges 
and Universities, Mr. Stanton, and I can tell you that that has 
made a tremendous difference at Knoxville College.
    You know, many of the small, private colleges around the 
country, whether black colleges or all of the small, private 
colleges, many of them have had real struggles to survive in 
recent years. For instance, at the University of Tennessee in 
Knoxville, each student, I think, receives kind of a subsidy of 
almost $7,000 per student, but these private, small colleges, 
they don't receive anything like that. So this particular 
legislation has made a big difference for these colleges.
    Not everybody needs to go to one of the big, giant 
universities. I remember when we had the first hearing on this. 
I said at that time that I went to the University of Tennessee, 
but I probably should have gone to a smaller college because I 
was so bashful, and not everybody fits in or needs to go to one 
of these big, giant universities.
    So I really appreciate what you've done for Knoxville 
College and these other colleges, although I wouldn't have a 
problem in extending it to some of the other historic buildings 
on some of the other colleges campuses as well. But thank you 
very much for what you're doing on this.
    Mr. Stanton. Thank you, Congressman Duncan.
    Mr Hansen. The gentleman from New Mexico, Mr. Udall.
    Mr. Udall of New Mexico. Thank you, Chairman Hansen, and 
thank you, members of the panel, for being here.
    Director Stanton, I know that you were first hired by my 
father to work for the National Park Service.
    Mr. Stanton. That's correct.
    Mr. Udall of New Mexico. I can tell you, he would be very 
proud today to see that you're heading up this very important 
agency.
    Mr. Stanton. That's very kind of you. Thank you.
    Mr. Udall of New Mexico. I want to try to get to the root 
of a problem here that looks like we have a little bit of a 
conflict, Mr. Hefley, between the two Executive orders and the 
statute, in terms of locating Federal buildings in historic 
areas.
    I notice that Director Stanton mentions that in his 
testimony, that we have Executive Order 13006, which gives 
direction and first consideration to Federal agencies to locate 
in historic areas, and then we also have a statute that 
apparently tries to give priority for Federal buildings to be 
located in rural areas. It seems like both the administration 
and maybe the Congress at this point aren't clearly focusing in 
on what we want to do in terms of historic areas.
    I mean, I'm a little bit torn on this, I must say, because 
I represent a rural area. I would love to see more Federal 
buildings in rural areas, although I understand the intent very 
much of Mr. Hefley to try to give a directive in his bill to 
specifically say that first consideration should be given to 
locating Federal offices in historic areas.
    What are your thoughts on that? I notice you recommend--I 
think this is your testimony, Director--that you might be 
willing to work with language to clarify that.
    Mr. Stanton. Yes. I appreciate that.
    There are two Executive orders and one Act of Congress that 
directs the Federal Government to look at the location of 
Federal buildings and emphasize the use of historic properties. 
What we believe within the Department of Interior, and 
obviously the General Services Administration, which is the 
principal procurer of real estate, if you will, and offices to 
accommodate the government function, would be a principal 
participant in further review of this, and certainly all would 
agree that the provision included in the bill introduced by 
Congressman Hefley is commendable. I think the objective is the 
same for all and that all objectives could be met.
    I would like, Mr. Udall, if possible, to ask Miss Osterman 
to respond. Her office has done a great deal of work, in 
collaboration with the Department of Interior and the General 
Services Administration, on this.
    Mr. Udall of New Mexico. That would be great.
    Ms. Osterman. Thank you very much.
    I am happy to respond to this point because the National 
Trust was involved not only with the drafting of Executive 
Order 13006, but also the revamping of the other Executive 
order in question, which took place at approximately the same 
period of time.
    It is our belief that there is no conflict between these 
Executive orders, nor between the Rural Development Act. In 
fact, first of all, our view is that the same underlying intent 
exists, in fact, in both Executive orders and in the Rural 
Development Act, which is to use Federal agencies to reinforce 
economic vitality and viability of various economic centers 
around the country.
    In fact, Executive Order 13006 is at the moment being very 
much in play in rural areas--in fact, in a sense more so than 
in large downtown areas, where Federal agencies are often drawn 
because of the population mass and transportation facilities.
    But in smaller towns, where we've been working very closely 
with GSA and Federal agencies, particularly offices like USDA 
field offices that are located in rural areas throughout the 
country, because what's happening there is that you'll have a 
downtown--rural areas have downtown areas, of course. What we 
want to see happen, what the communities want to see happen, 
what the intent of both Executive orders is, and I believe the 
Rural Development Act, is that where you have the economic 
centers already in place, you want to use the Federal 
facilities to continue to anchor them. You don't want them 
leaving the downtown areas and going out into greenfields 
beyond where there is no development, and starting to foster 
and draw development away from the already built up areas. 
That's true in communities of any size.
    Be that as it may, as we read this language here, we think 
this is entirely consistent. In fact, Executive Order 13006 
acknowledges the Rural Development Act in its language.
    Mr. Udall of New Mexico. So you don't have any problem with 
this giving first consideration to historic properties within 
historic districts because you believe it's compatible, that 
you could locate in a rural area or you could locate in a 
downtown area, and there's not any incompatibility then?
    Ms. Osterman. Not at all, because historic districts are 
really most frequently found in--especially in small towns, 
you're going to find them in what you think of as traditional 
downtown core areas. You're going to find them in places of 
historic settlement, obviously. These are the kind of places 
that we want to reinforce the economic life of and where we 
would like to see the Federal facilities located.
    You know, it's strictly a tiered process. In the two years 
that this Executive order has been in place, we haven't heard 
of any kinds of conflict, any vying between cities and small 
towns, between cities and rural areas, over the location of a 
Federal facility. What you're usually talking about is, ``Is it 
going to be in the core downtown area, or is it going to be two 
miles away in the middle of a corn field''.
    Mr. Udall of New Mexico. So you don't see any need for it 
to be amended, Director Stanton, at this point?
    Mr. Stanton. No, I think it's a question of whether or not 
the language, as set forth in the draft bill, perhaps could be 
modified in some fashion. But I would defer again to the 
General Services Administration, working certainly with the 
National Trust for Historic Preservation and others. But we 
believe the intent is in place and there is no basic problem.
    Mr. Udall of New Mexico. Mr. Hefley, if we can resolve this 
issue, I would be happy to join up and cosponsor. I commend 
your effort at trying to get reauthorization of what I think is 
a very important Act.
    Thank you very much, Mr. Chairman.
    Mr. Hefley. If the gentleman will yield----
    Mr. Udall of New Mexico. Sure.
    Mr. Hefley. I think our witness did a much better job than 
I could in responding to your question. But there was no intent 
to shift the emphasis. From a practical standpoint, you might 
have a historic barn two miles outside of Eufaula, OK or Taos, 
NM and you wouldn't want a government building going out there 
to do that, and develop shopping centers around it and parking 
lots and all that kind of thing. I think you explained that 
very, very well.
    So the intent was not to take away the emphasis from the 
rural area, but if there is language we need to tighten it up, 
I would be happy to work with you on that. I would be honored 
to have both of the Udalls as cosponsors, and also Jimmy Duncan 
and any of the rest of the Committee who would like to join in. 
I think this is something there is vast agreement on, and if 
there are little tweaks we need to do, we're happy to work with 
you to do that.
    Mr. Udall of New Mexico. Thank you very much. The Udalls 
don't want to weight it down, though.
    [Laughter.]
    Mr Hansen. The gentleman from California, Mr. Pombo.
    Mr. Pombo. No questions.
    Mr Hansen. The gentleman from California has no questions.
    Is there any Member of the Committee that has further 
questions for the panel? Members of the panel, do you have 
something ``burning in your bosom'' that you just have to say?
    If not, we thank you for your excellent testimony. It is 
the intent of the Subcommittee to move this legislation as 
rapidly as we can. Thanks for being here.
    We are adjourned.
    [Whereupon, at 11 a.m., the Subcommittee adjourned.]

</pre></body></html>
